  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




         HIPAA READINESS:
     ADMINISTRATIVE SIMPLIFICATION
FOR TERRITORIES WITH M EDICAID PROGRAMS




                     JANET REHNQUIST
                       Inspector General

                        March 2003
                      OEI-09-02-00423
                Office of Inspector General

                                   http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. The OCIG imposes program exclusions and civil monetary
penalties on health care providers and litigates those actions within the department. The OCIG
also represents OIG in the global settlement of cases arising under the Civil False Claims Act,
develops and monitors corporate integrity agreements, develops model compliance plans,
renders advisory opinions on OIG sanctions to the health care community, and issues fraud
alerts and other industry guidance.
                          EXECUTIVE                         SUMMARY

OBJECTIVE

          To determine if United States territories with Medicaid programs expect to comply with the
          electronic data transaction standards and code sets under the Health Insurance Portability and
          Accountability Act (HIPAA) by October 2003.



BACKGROUND

          The purpose of Title II of HIPAA is to improve the efficiency of the health care system by
          establishing standards to facilitate the electronic transmission of data between providers and
          payers. Electronic data interchange (EDI) can eliminate the inefficiencies associated with
          handling paper documents. It can reduce administrative costs and improves overall data quality
          for transactions, such as health care payments and coordination of benefits.1

          In accordance with the provisions of Title II of HIPAA, the Secretary of Health and Human
          Services has promulgated regulations mandating the use of specific standards for eight different
          types of electronic transactions and medical code sets. According to the regulations, Medicaid
          agencies and other covered entities that filed an extension must implement the standards by
          October 16, 2003.



FINDINGS

          We conducted telephone interviews with officials from the five territories with Medicaid
          programs. Four of the five territories report that they will not be fully compliant with the
          electronic transaction standards and code sets, and they will not meet the October 2003,
          implementation date. The most significant barriers for the territories are the lack of financial and
          technical resources. Since the territories’ federal Medicaid funds are capped, they were
          ineligible for additional federal financial participation funds to implement the electronic
          transaction standards.

Territories have not developed compliance strategies

          None of the territories has developed a compliance strategy. Territories have considered

          1
           65 F.R. 50312 (August 17, 2000).


HIPAA Readiness: Administrative Simplification              1                                  OEI-09-02-00423
          alternatives but have not moved forward with implementation plans, due to the lack of funding
          to convert to the electronic transaction standards and code sets.

Because they lack the funds, territories have not developed sequence planning
and testing protocols

          Neither the federal government nor the territorial governments have allocated funds for
          compliance. Therefore, the territories lack the funding to acquire the technical resources
          needed to develop their implementation strategies.


CONCLUSION

          One territory may be in compliance if its legislature allocates funds designated to implement the
          HIPAA transaction standards and code sets. According to territory officials, limited funding
          and the lack of technical resources will prevent the remaining four territories from meeting any
          of the transaction standards by October 2003.




HIPAA Readiness: Administrative Simplification             2                                 OEI-09-02-00423
                            TABLE                         OF             CONTENTS
                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Compliance strategies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Sequence planning and testing protocols . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDIX: HIPAA Electronic Transaction Standards Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . 9


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11





HIPAA Readiness: Administrative Simplification                               3                                             OEI-09-02-00423
                                       INTRODUCTION

OBJECTIVE

          To determine if United States territories with Medicaid programs expect to comply with the
          electronic data transaction standards and code sets under the Health Insurance Portability and
          Accountability Act ( HIPAA) by October 2003.



BACKGROUND

          Congress instituted significant reforms to the health care industry with the passage of HIPAA.
          Title I of HIPAA assures the availability and portability of health care insurance coverage, while
          Title II creates a regulatory framework focused on improving the efficiency of the health care
          system by establishing standards to facilitate the electronic transmission of data between
          providers and payers. The goal is to create a seamless transfer of data with limited manual
          intervention.

Administrative Simplification

          Under Title II, Subtitle F (Administrative Simplification), the Secretary of Health and Human
          Services has the authority to: (1) mandate the use of standards for the electronic exchange of
          health care data; (2) specify what medical and administrative code sets should be used, (3)
          require the use of national identification systems, and (4) specify the types of measures required
          to protect the security and privacy of personally identified health care information.

Electronic Transactions and Code Sets

          Electronic data interchange (EDI) is the electronic transfer of information in a standard format
          between trading partners.2 The EDI substantially reduces the handling and processing time
          compared to paper transactions. The EDI can eliminate the inefficiencies of handling paper
          documents by reducing the administrative burden, lowering operating costs, and improving
          overall data quality.3



          2
          Trading partners are external entities, such as hospitals, physicians, dentists, nursing homes, and other
Medicaid providers with whom the Medicaid agency does business.

          3
           65 F.R. 50312 (August 17, 2000).


HIPAA Readiness: Administrative Simplification                         4                                         OEI-09-02-00423
          Transactions are the exchange of information between two parties to carry out financial or
          administrative activities related to health care. The standards for electronic transmission of each
          of the transactions are codified in the Code of Federal Regulations (45 CFR Parts 160 and
          162). The rule provides standards for eight types of electronic transactions:

          <         health care claims or equivalent encounter information, 

          <         health care payments and remittance advice, 

          <         coordination of benefits, 

          <         health care claim status, 

          <         enrollment and disenrollment in a health plan, 

          <         eligibility for a health plan, 

          <         health plan premium payments, and 

          <         referral certification and authorization.


          The rule also contains requirements concerning the use of standardized code sets, such as

          tables of terms, medical concepts, medical diagnostic codes, or medical procedure codes used

          to encode data elements in the transaction. The code set includes the codes and the descriptors

          of the codes.4 The following code sets have been adopted:


          <	        International Classification of Diseases-9-Clinical Modifications (ICD-9-CM), volumes
                    1, 2, and 3,
          <	        Combination of Health Care Financing Administration Common Procedure Coding
                    System (HCPCS) and Current Procedural Terminology-4 (CPT- 4), for physicians and
                    other health services,
          <         HCPCS for all other items,

          <         National Drug Codes (NDC) or HCPCS for prescription drugs, and

          <         Common Treatment for Dentists-2 (CTD-2) for dental services.


          Covered entities, defined as providers, clearinghouses, and health plans that use the electronic

          exchange of health information as part of their business, will be required to adopt these

          standards. Medicaid agencies are defined as health plans under Title II. The compliance date

          for this rule (45 CFR Parts 160 and 162) was originally October 16, 2002. The Administrative

          Simplification Compliance Act, signed into law on December 27, 2001, extends the compliance

          date by one year to October 16, 2003. The extension applies only to those covered entities

          that filed an extension with the Centers for Medicare & Medicaid Services (CMS) by October

          16, 2002. According to CMS officials, all five territories with Medicaid programs have filed

          extensions. Therefore, October 2003, is the effective compliance date for the territories. 

          Because the implementation date is several months away, standards have not yet been

          developed to measure compliance.



          4
           45 CFR §160.1002


HIPAA Readiness: Administrative Simplification               5                                OEI-09-02-00423
METHODOLOGY

          This is one of several inspections that the OIG is conducting to determine the expected level of
          readiness for compliance by October 2003. After receiving input from CMS officials in the
          Centers for Medicaid and State Operations (CMSO), we developed a standardized telephone
          questionnaire to gather information from the Medicaid program officials responsible for
          implementing HIPAA electronic transactions and code sets.

          We conducted telephone surveys of the Medicaid directors for the five territories, HIPAA
          coordinators, and/or their staff between October 1 and October 31, 2002.

          We questioned the officials about the level of readiness in four broad areas:

          T         assessment and awareness activities, for example, which programs and functions are
                    being affected by the regulations;
          T         barriers that have impeded or are current obstacles to achieving compliance;
          T         compliance strategies, such as sequencing and testing plans that are being used for
                    implementation in the Medicaid program; and
          T         contingency planning.

          The inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




HIPAA Readiness: Administrative Simplification             6                                OEI-09-02-00423
                                                 FINDINGS

          We conducted telephone interviews with officials from the five territories with Medicaid
          programs. Four of the five territories report that they will not be in compliance with the
          electronic transaction standards and code sets, and they will not meet the October 2003,
          implementation date. The most significant barriers for the territories are the lack of financial and
          technical resources. Since the territories’ federal Medicaid funds are capped, they were
          ineligible for additional federal financial participation funds to implement the electronic
          transaction standards.

Territories have not developed compliance strategies

          None of the five territories have developed a compliance strategy. One territory is considering
          a contract with a clearinghouse until it can make major conversions in its territorial data
          processing system. Another territory is considering a translator or a clearinghouse, depending
          on the availability of funds. One territorial official stated that the territories could easily
          implement the transaction standards and code sets using a personal computer program, if CMS
          would develop it. Only one of the territories anticipates that it will be able to coordinate
          payments with a compliant Medicare system for crossover beneficiaries by the October 2003,
          deadline.


Because they lack the funds, territories have not developed
sequence planning and testing protocols

          Neither the Federal Government nor the territorial governments have allocated funds for
          compliance. Four of the five territories entire Medicaid budget is less than $15 million and the
          federal match is capped for each of them. Therefore, the territories lack the funding to acquire
          the technical resources needed to develop their implementation strategies. One territorial
          official has considered a basic sequencing strategy that would start with the easiest transaction,
          coordination of benefits. However, none of the territories has developed any type of
          sequencing plan. Furthermore, none of the territories has developed testing plans or
          contingency plans, since they do not have resources to guide the implementation process. One
          territorial official said the contingency plan was “to continue doing business as usual with
          compliant and noncompliant trading partners.”




HIPAA Readiness: Administrative Simplification              7                                  OEI-09-02-00423
                                           CONCLUSION

          One territory may be in compliance if its legislature allocates funds designated to implement the
          HIPAA transaction standards and code sets. According to territory officials, limited funding
          and the lack of technical resources will prevent the remaining four territories from meeting any
          of the transaction standards by October 2003.

          We will provide additional technical information, as appropriate, to CMS.




HIPAA Readiness: Administrative Simplification             8                                 OEI-09-02-00423
                                                                               Appendix


            Glossary of Electronic Transaction Standards Terminology

Administrative Simplification: the use of mandated standards for the electronic exchange of health
care data and specific measures to protect the security and privacy of personally identifiable health care
information.

Business Associate: a person or organization that performs certain business functions on behalf of a
covered entity.

Clearinghouse: an entity that processes information received from one entity in a nonstandard format
into a standard transaction, or receives a standard transaction and converts it to a nonstandard format
for a receiving entity.

Code Set: the tables of terms, medical concepts, diagnostic codes, or procedure codes and
descriptions used to encode information in a transaction.

Contingency Plan: a plan developed by covered entities to provide an alternative for submitting or
receiving HIPAA electronic transactions after October 2003, in the event that the covered entity’s
system conversion fails or is incomplete.

Covered Entity: any health plan, health care clearinghouse, or a health care provider who transmits
any health information in electronic form in connection with a transaction covered by the HIPAA
standards.

EDI Translator: a software tool for accepting an EDI transmission and converting the data into
another format, or for converting a non-EDI file into an EDI format for transmission.

Electronic Data Interchange (EDI): any electronic exchange of formatted data.

Gap Analysis: an evaluation of a covered entity’s system to define the changes to be made, how the
data will be managed, and what procedures will be implemented to enter and to verify information.

Local Codes: a generic term for code values that are defined for a state or other political subdivision
or specific payer.

Medicaid State Agency: the state agency responsible for overseeing the state’s Medicaid program,
defined as a covered entity under HIPAA.

Small Health Plan: under HIPAA, a health plan with annual receipts of $5 million or less.

HIPAA Readiness: Administrative Simplification           9                                 OEI-09-02-00423
Sequencing: a process plan developed by a covered entity to implement each of the transaction
standards in a logical sequence.

Standard Transactions: the exchange of information between two parties that complies with the
requirements established under HIPAA.

Trading Partner: an external entity, such as a customer, with whom the covered entity does business.
A trading partner can be so designated for some purposes and considered a business associate for
other purposes.

Translator: See EDI translator.

Vendor: software and/or hardware entities that provide HIPAA compliant services, consulting, and/or
products to covered entities. Vendors may be business associates or trading partners.




HIPAA Readiness: Administrative Simplification        10                                OEI-09-02-00423
                             ACKNOWLEDGMENTS


          This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
          for Evaluation and Inspections, and Deborah Harvey, Assistant Regional Inspector General for
          Evaluation and Inspections in San Francisco. Other principal Office of Evaluation and
          Inspections staff who contributed include:

          Timothy Brady, Project Leader
                       Linda Frisch, Program Specialist
          Silvia Chin, Program Analyst
                        Stephanie London, Program Specialist
          Rob Gibbons, Program Analyst

          Cindy Lemesh, Program Analyst

          Thomas A. Purvis, Program Analyst

          Cheryl Dotts, Program Assistant





                               For information or copies of this report, please contact

                                         the Office of Inspector General’s

                                      Public Affairs office at (202) 619-1343.


                Reports are also available on the World Wide Web at our home page address:

                                           http://www.oig.hhs.gov/



HIPAA Readiness: Administrative Simplification                 11                             OEI-09-02-00423
